No. 19-1039
IN THE
Supreme Court of the United States

PENNEAST PIPELINE COMPANY, LLC, Petitioner,
V.

STATE OF NEW JERSEY' ET AL., Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Third Circuit

CERTIFICATE OF COMPLIANCE
I, Ellen 0. Boardman, a member of the Bar of this Court, as required by Supreme Court
Rule 33.l(h), do hereby certify that on the 23rd day of March, 2020, the Brief of the United
Association of Journeymen and Apprentices of the Plumbing and Pipe Fitting Industry of the
United States and Canada, AFL-CIO; International Union of Operating Engineers; International
Brotherhood of Teamsters; Laborers' District Council of Eastern Pennsylvania; and New Jersey
State Building and Construction Trades Council as Amici Curiae in Support of Petitioner
contains S~<t'-t words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.l(d).

Ellen 0. Boardman - Counsel ofRecord
O' DONOGHUE & O'DONOGHUE LLP
5301 Wisconsin Avenue, NW
Suite 800
Washington, DC 20015
eboardman@ odonoghuelaw.com
(202) 362-0041
Counsel for Amici Curiae
March 23, 2020

